                           SOCIAL SECURITY
                                     July 14, 2010



The Honorable Claire McCaskill
United States Senate
Washington, D.C. 20515

Dear Senator McCaskill:

In an August 4, 2009 letter, you asked that we determine whether the Social Security
Administration’s (SSA) plans will enable the Agency to achieve its goal of eliminating
the pending hearings backlog by 2013. To address this issue, we consulted with Office
of Disability Adjudication and Review (ODAR) management to obtain updated
information on the current status of the pending hearings backlog plan. We also
examined ODAR’s assumptions related to hearing workloads, hiring, productivity, and
other factors associated with reducing the pending hearings backlog through 2013.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. The report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

The Office of Disability Adjudication
            and Review’s
2013 Pending Hearings Backlog Plan


            A-12-10-20114




              July 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                            Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had
an achievable plan to eliminate the pending hearings backlog by Fiscal Year (FY) 2013.

BACKGROUND
In May 2007, SSA presented to Congress and began implementing its Plan to Eliminate
the Hearings Backlog and Prevent its Recurrence. As outlined in its FY 2008–2013
Strategic Plan, SSA plans to reduce the number of pending cases to a desired level of
466,000 cases and reduce the average processing time to 270 days by FY 2013. 1
According to SSA, a pending case level of 466,000 cases would be the ideal number of
pending cases based on the expected number of administrative law judges (ALJ)
working in the Agency.

To accomplish our objective, we consulted with Office of Disability Adjudication and
Review (ODAR) management to obtain updated information on the current status of the
pending hearings backlog plan; reviewed the information already provided by the
Agency in our August 2009 report, Office of Disability Adjudication and Review
Management Information (A-07-09-29162); and examined SSA’s latest assumptions
related to hearing workloads, hiring, productivity, and other factors associated with
reducing the pending hearings backlog through 2013.




1
    Hearing timeliness was about 442 days in March 2010.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                            1
                                                             Results of Review
We believe SSA will be able to achieve its FY 2013 pending hearings backlog goal if the
Agency has reliably projected hearing level receipts, ALJ availability levels, ALJ
productivity levels, and senior attorney adjudicator decisions through 2013. However,
the Agency has varying control over these factors. Moreover, a small variance in these
projections could cause SSA to exceed the targeted number of cases in its 2013
pending hearings backlog. For example, a 3-percent change in receipts, ALJ hiring, or
ALJ productivity could cause SSA to exceed its 466,000-case backlog goal. SSA could
also miss its targeted hearings backlog goal if the Senior Attorney Adjudicator initiative
expires in FY 2011.

ACHIEVING THE 2013 PENDING HEARINGS BACKLOG GOAL

Our projections, based on four key variables that directly affect the pending hearings
backlog, indicate SSA will meet its FY 2013 pending hearings backlog goal (see Table
1). We estimate the Agency will have approximately 405,000 pending hearing cases by
the end of FY 2013, which is lower than the Agency’s stated ideal goal of
466,000 cases. We developed similar projections in a 2009 report to the Agency. 2 Our
calculations are based on factors over which SSA maintains varying control, including
the (1) number of new receipts, (2) number of available ALJs, (3) productivity of those
ALJs, and (4) number of decisions issued by senior attorney adjudicators.3 Current
projections indicate the Agency is closer to meeting its FY 2013 pending hearing
backlog goal than it was when we conducted our 2009 review. 4 However, to
demonstrate the sensitivity of the factors used in our projections, we also projected the
negative impact on the FY 2013 pending hearings backlog should the Agency’s
assumptions vary over time. 5




2
  SSA Office of the Inspector General (OIG), Office of Disability Adjudication and Review Management
Information (A-07-09-29162), August 2009.
3
  Other than the Senior Attorney Adjudicator initiative, we did not evaluate the effect of ODAR’s initiatives
on the pending hearings backlog. ODAR has not issued performance measures on its other initiatives
that impact the pending hearings backlog.
4
 Our August 2009 projections estimated SSA would have 458,870 cases in the pending hearing backlog
at the end of FY 2013.
5
  The four key factors could also change favorably to the Agency’s benefit and effectively lead to a faster
reduction of the backlog. Moreover, some factors could improve and others worsen, leading to a more
complex picture. In the projections that follow, we will hold all but one factor constant to demonstrate the
sensitivity of each factor with regard to the Agency’s ability to meet its 2013 goal.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                      2
                  Table 1: OIG Projection of the Pending Hearings Backlog
                                         (FYs 2009 through 2013)
          Workloads/                 FY 2009    FY 2010      FY 2011    FY 2012                FY 2013
           Staffing                  (Actual) (Projected) (Projected) (Projected)            (Projected)
    Beginning Balance1                760,813      722,822         696,382        635,662         527,422
                             2
    Projected Receipts                622,851      708,600         749,900        729,800         707,500
                     3
    ALJs Available                      1,057         1,178          1,309           1,358          1,348
                                 4
    Total ALJ Dispositions            609,538      683,240         759,220        787,640         781,840
                         5
    Informal Remands                   14,938         2,000          2,000           2,000          2,000
    Senior Attorney
    Adjudicator Dispositions6          36,366        49,800         49,400         48,400          46,500
                         7
    Total Dispositions                660,842      735,040         810,620        838,040         830,340
    Year-End Pending8                 722,822      696,382         635,662        527,422         404,582
Table Notes:
   1. The FY 2009 Beginning Balance figure was taken from the Cumulative Regional Workload report.
       The Beginning Balance figures for FYs 2010 through 2013 are equal to the Closing Pending
       levels from the prior FYs.
      2. The FY 2009 receipts figure was taken from ODAR’s Case Processing and Management
         System’s Caseload Analysis Report. The FYs 2010 through 2013 Projected Receipts data were
         provided by SSA’s Office of Budget, Finance and Management.
      3. The FY 2009 ALJs Available figure was taken from ODAR’s Workload and Performance
         Summary report. The FYs 2010 through 2013 ALJs Available figures were provided by SSA’s
         Office of Budget, Finance and Management.
      4. The FY 2009 Total ALJ Dispositions figure was taken from the Cumulative Regional Workload
         report. Total ALJ Dispositions for FYs 2010 through 2013 were calculated by multiplying
         available ALJs x ALJ productivity (2.32) x number of work days in the year (250 days per year).
         See the ALJ Productivity section of this report for more details.
      5. The FY 2009 Informal Remands figure was taken from the Cumulative Regional Workload report.
         ODAR provided the FYs 2010 through 2013 projections. These cases are part of the ALJ
         workload but counted separately.
      6. The FY 2009 Senior Attorney Adjudicator Dispositions figure was taken from ODAR’s Caseload
         Analysis Report. ODAR provided the FYs 2010 through FY 2013 projections, which include
         increased screening dispositions. We describe these dispositions later in the report.
      7. Total Dispositions is the sum of Total ALJ Dispositions, Informal Remands, and Senior Attorney
         Adjudicator Dispositions.
      8. We calculated Year End Pending by adding projected receipts to the Beginning Balance level and
         subtracting Total Dispositions for each FY.


In our projections, we factored in workloads from the Informal Remand initiative even
though ODAR is not processing many cases through the initiative at this time (see
Appendix C). 6 This initiative led to approximately 15,000 allowances in FY 2009 and
represents a tool available to the Agency should it choose to reinitiate the process.


6
 To produce 2,000 allowances, as shown in the table, the disability determination services (DDS) offices
need to review approximately 10,000 hearing cases.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                  3
SSA ROLE IN BACKLOG FACTORS

The Agency has varying levels of influence over the backlog factors in our calculations
(see Table 2). For example, the number of incoming hearing-level receipts depends, in
part, on the status of the economy. 7 In addition, the number of available ALJs is not
completely within SSA’s control since ALJ funding comes from Congress. Moreover,
ALJ screening and development of a roster of eligible candidates are controlled by the
Office of Personnel Management (OPM). 8 SSA has greater influence over ALJ
productivity, continuation of the Senior Attorney Adjudication initiative, and use of the
Informal Remand initiative.

                    Table 2: Agency Influence over Factors Impacting
                             the Pending Hearings Backlog Goal
                                              Primarily                   Primarily Influenced
               Factor                    Influenced by SSA                by Non-SSA Causes
    Hearing Receipts                                                                 
    ALJ Availability - Funding                                                       
    ALJ Availability - OPM                                                           
    ALJ Productivity                               
    Senior Attorney Adjudicator                    
    Informal Remands                               




7
 While the overall volume may be outside SSA’s control, the flow can be moderated based on the ability
of DDS offices to process incoming claims. However, the States are facing increasing initial claim
backlogs due to the status of the economy. See SSA OIG, Impact of State Budget Issues on the Social
Security Administration’s Disability Programs (A-01-10-11006), November 2009.
8
  Applicants for an ALJ position must meet experience and licensure requirements, and complete an
Accomplishment Record, a Written Demonstration, and a Structured Interview. Eligible candidates are
placed on the ALJ register, which is used as the source of names to make referrals to agencies for
employment consideration when they have entry level ALJ vacancies to fill. Names are referred in
numerical score order. It is the responsibility of the agencies to make selections from the list of
candidates referred for employment consideration from among the highest three available names,
pursuant to 5 C.F.R. § 332.404, taking into consideration veterans' preference rules regarding order of
selection. It is OPM's responsibility to ensure that the ALJ register maintains a sufficient number of
qualified ALJ candidates to meet the projected hiring needs of agencies, including enabling agencies to
have an adequate number of choices for each position to be filled. Consequently, OPM will periodically
reopen the ALJ examination as the need arises.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                 4
HEARING RECEIPTS

SSA is projecting hearing receipts to peak at about 750,000 cases in FY 2011, then
drop slightly in FYs 2012 and 2013 (see Table 3). Compared to the earlier projections
that were outlined in our August 2009 report, SSA’s current projections show a higher
number of hearing receipts primarily in FYs 2012 and 2013. Increased projections in
hearing receipts are due, in part, to increased applications for disability benefits during
the economic downturn. SSA staff noted that these hearing receipt projections do not
anticipate potential delays in requests for hearings resulting from increasing claims
backlogs at DDS offices. Hence, depending on the situation at DDS offices, the timing
of the peak in receipts may shift.

                          Table 3: Changes in Projected Hearing Receipts
                                      (Earlier Versus Current)
        SSA’s Projections              FY 2009        FY 2010        FY 2011   FY 2012   FY 2013
                                                 2
    Current Projections                622,851        708,600        749,900   729,800   707,500
                          1
    Earlier Projections                641,000        698,000        736,000   699,000   670,000
    Difference in Projections           -2.8%           1.5%           1.9%     4.4%      5.6%
Note 1: FY 2009 projections from our August 2009 report.
Note 2: Represents actual receipts in FY 2009.


SSA’s ability to achieve its 2013 pending hearings backlog goal (466,000 cases) will be
at risk if the Agency receives 3 percent more hearing receipts each year from 2010
through 2013 than is currently projected (see Figure 1). 9 With 3 percent more hearing
receipts, the pending hearings backlog at the end of FY 2013 would rise to about
491,000 cases. As noted in Table 3, FYs 2012 and 2013 already exceeded this
3 percent based on the new projections. Moreover, if hearing receipts increase by
5 percent annually through 2013, the pending hearings level would rise to about
549,000 cases by the end of FY 2013. If hearing receipts increase by 7 percent, the
pending hearings level would be about 607,000 by the end of FY 2013.




9
    In each of our projections, we held all the other variables constant.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                          5
                               Figure 1: Projected Pending Hearings Backlog Based on
                                             Changes in Hearing Receipts
                                                        (FYs 2009 through 2013)
                    800,000
                                                     745,984
                                                                         737,757

                                                                         708,587                     680,603
                    700,000   722,822
                                           696,382                           679,417
 Pending Hearings




                                                                                                      636,837
                                                               635,662
                    600,000                                                                          593,071               607,288


                                                                                                                           549,372
                                                                                          527,422
                    500,000                                                                                                491,456




                    400,000                                                                                                404,582
                       Actual 2009          Projected 2010       Projected 2011             Projected 2012        Projected 2013

                                                                End of Fiscal Year


                                        Hearings Pending       3% Increase             5% Increase         7% Increase




ALJ AVAILABILITY

SSA is projecting that it will have 1,178 ALJs available in FY 2010, 1.7 percent fewer
available ALJs than it projected in FY 2009 (see Table 4). 10 However, SSA is projecting
it will have 1,348 available ALJs by FY 2013, or 1.6 percent more than it initially
projected in FY 2009. SSA’s ability to hire ALJs depends on annual appropriations,
space availability, and OPM’s ability to screen potential candidates and create a list of
eligible candidates. In our December 2009 report, 11 we noted that ODAR’s planned
number of ALJ hires in FY 2009 dropped from 157 to 153 after it was determined that
4 candidates did not meet the Agency’s requirements. In addition, of these 153 ALJ
selections, 6 offers were declined and ODAR could not continue hiring until OPM
produced a new list of eligible ALJ candidates.




10
  The Agency’s assessment of ALJ availability incorporates ALJ attrition as well as the learning curve of
new ALJs by assuming inexperienced ALJs are not fully available until they have worked at least
9 months on the job.
11
  SSA OIG, The Office of Disability Adjudication and Review’s Staffing Plan Under the American
Recovery and Reinvestment Act (A-12-09-29140), December 2009.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                     6
                                           Table 4: Changes in Projected Available ALJs
                                                      (Earlier Versus Current)
  SSA Projections                                       FY 2009            FY 2010           FY 2011           FY 2012        FY 2013
                                                                    2
  Current Projections                                       1,057            1,178             1,309            1,358          1,348
                                       1
  Earlier Projections                                       1,066            1,198             1,316            1,327          1,327
  Difference in Projections                                 -0.8%            -1.7%             -0.5%             2.3%          1.6%
Note 1: FY 2009 projections from our August 2009 report.
Note 2: Represents actual ALJs available in FY 2009.


SSA’s ability to achieve its 2013 backlog goal will be at risk if the number of available
ALJs is 3 percent or less per year from FY 2010 through FY 2013 than projected (see
Figure 2). With 3 percent fewer available ALJs, the pending hearings backlog at the
end of FY 2013 would rise to about 495,000 cases. With 5 percent fewer available
ALJs, the pending hearings backlog would increase to about 555,000 cases at the end
of FY 2013. Finally, if the Agency had 7 percent fewer available ALJs over the next
4 years, the number of pending hearings at the end of FY 2013 would rise to about
615,000 cases.

                               Figure 2: Projected Pending Hearings Backlog Based on
                                              Changes in Available ALJs
                                                        (FYs 2009 through 2013)

                   800,000
                                                  744,209                         736,634

                                                                                  707,582                 683,529
                   700,000
Pending Hearings




                             722,822
                                                  696,382               678,936
                                                                                                            638,782
                                                                                                                                      615,418
                                                                        635,662
                   600,000
                                                                                                   594,325
                                                                                                                                      554,801

                                                                                                527,422
                   500,000                                                                                                            494,940




                                                                                                                                      404,582
                   400,000
                      Actual 2009            Projected 2010             Projected 2011           Projected 2012           Projected 2013


                                                               End of Fiscal Year


                                    Hearings Pending          3% Fewer ALJs                 5% Fewer ALJs             7% Fewer ALJs




ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                                7
ALJ PRODUCTIVITY

Based on ALJ staffing and productivity projections, the number of ALJ dispositions will
rise above 750,000 in FY 2011 and remain at this level or higher throughout this period
(see Figure 3). 12 In our August 2009 report, we used 2.29 dispositions per available
ALJ per day as the level of ALJ productivity for FYs 2009 through 2013. Based on
actual FY 2009 ALJ productivity, we are now using an ALJ productivity level of
2.32 dispositions per day per ALJ for FYs 2010 through 2013. This ALJ productivity
level represents a 1.3-percent increase from the earlier projections.13 These later
projections are slightly higher than initially projected in FY 2009 primarily due to the
increased ALJ productivity combined with a higher number of available ALJs. 14

                                    Figure 3: Changes in Projected ALJ Dispositions through FY 20131
                                                        (Earlier Versus Current2)

                                  800,000
     Projected ALJ Dispositions




                                  600,000




                                                                                                       787,640




                                                                                                                            781,840
                                                                        683,240
                                                       609,538




                                                                                       753,402




                                                                                                       759,738
                                             610,470




                                                                        685,855




                                                                                       759,220




                                                                                                                  759,738
                                  400,000



                                  200,000



                                       0
                                            FY 2009                    FY 2010         FY 2011         FY 2012    FY 2013
                                                                                  End of Fiscal Year

                                                                 Earlier Projections        Current Projections

Note 1: ALJ productivity is defined as the number of dispositions per ALJ per day. ALJ productivity is
shown here as 2.32 dispositions per day per ALJ for FYs 2010 through 2013. Work days are 250 per
year for FYs 2010 through 2013.
Note 2: Current projections for FY 2009 represent actual ALJ dispositions.




12
  Annual Dispositions is calculated by multiplying three numbers: available ALJs, ALJ productivity, and
250 work days per year.
13
 ALJ productivity relies on having adequate staffing ratios and staffing mixes in the hearing offices. See
SSA OIG, Hearing Office Productivity and Staffing (A-12-08-28088), February 2010.
14
  The lower ALJ dispositions in FYs 2009 and 2010 relate to lower numbers of available ALJs (see
Table 4).


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                             8
We determined that if ALJ productivity declined by 3 percent from FYs 2010 through
2013, the projected hearings backlog would be about 495,000 cases at the end of
FY 2013, falling short of the SSA’s pending hearings backlog goal. If ALJ productivity
decreased by 5 percent, the projected hearings backlog would be about 560,000 cases
by the end of FY 2013. Finally, a 7-percent decrease in ALJ productivity would result in
a projected hearings backlog of about 612,000 cases at the end of FY 2013 (see
Figure 4). 15

                                  Figure 4: Projected Pending Hearings Backlog Based on
                                                Changes in ALJ Productivity
                                                        (FYs 2009 through 2013)

                        800,000

                                                       743,502
                                                                              735,142

                                                                              710,272
     Pending Hearings




                        700,000   722,822                                                             681,222
                                             696,382                          679,185

                                                                                                      642,772
                                                                   635,662
                                                                                                                             612,302
                        600,000                                                                       594,710

                                                                                                                             560,372

                                                                                        527,422
                        500,000                                                                                              495,460




                        400,000                                                                                              404,582
                           Actual 2009       Projected 2010          Projected 2011       Projected 2012           Projected 2013


                                                                 End of Fiscal Year

                          Hearings Pending       3% Less Productivity          5% Less Productivity             7% Less Productivity



To demonstrate the long-term role of productivity gains, we also calculated the potential
effect of increased ALJ productivity. If ALJ productivity increased by 3 percent through
2013, the projected hearings backlog would be about 314,000 cases at the end of
FY 2013. Moreover, if ALJ productivity increased by 5 percent, the projected hearings
backlog would be about 249,000 cases by the end of FY 2013. Finally, a 7-percent
increase in ALJ productivity would result in a projected hearings backlog of about
197,000 cases, or less than half the goal SSA set for pending cases at the end of
FY 2013 (see Figure 5).
15
  While we do not expect productivity to decrease from FYs 2010 through 2013, we wanted to illustrate
the potential impact of lower productivity levels on the pending hearings backlog through the end of
FY 2013.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                              9
                                  Figure 5: Projected Pending Hearings Backlog Based on
                                                 Increased ALJ Productivity
                                                        (FYs 2009 through 2013)

                        800,000
                                  722,822
                                                      696,382
                        700,000
                                                                            635,662
     Pending Hearings




                        600,000             649,262

                                                                                                527,422
                        500,000                                   536,182
                                                                                                460,135

                        400,000                                                                                      404,582

                                                                                      373,622
                        300,000                                                                                      313,705

                                                                                                                     248,792
                        200,000                                                                                      196,862


                        100,000
                           Actual 2009      Projected 2010         Projected 2011     Projected 2012        Projected 2013

                                                                End of Fiscal Year


                         Hearings Pending       3% More Productive           5% More Productive           7% More Productive




SENIOR ATTORNEY ADJUDICATOR DISPOSITIONS

SSA reinstated the Senior Attorney Adjudicator initiative in November 2007. The
initiative allows senior attorney adjudicators to issue fully favorable on-the-record
decisions. The goal of the initiative is to expedite the decision-making process and
conserve ALJ resources for the more complex cases that require a hearing. Senior
attorney adjudicators issued 24,575 decisions in FY 2008, and another
36,366 decisions in FY 2009. SSA is also planning increased workloads for senior
attorney adjudicators related to three screening initiatives: (1) the Virtual Screening Unit
(VSU); (2) Office of Quality Performance (OQP) screening; and (3) Medical Expert
Screening (see Table 5). 16




16
   We are completing a separate review of the Senior Attorney Adjudicator initiative, which will be issued
later this year. See Appendix C for more on this initiative as well as other hearing backlog initiatives.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                      10
                                  Table 5: Senior Attorney Adjudicator Productivity
                                            Including Screening Projects
                                                      (FYs 2009 through 2013)
                    Source of Dispositions            FY 2009    FY 2010    FY 2011                    FY 2012       FY 2013
 Senior Attorney Adjudicators at
                                                            36,366         32,300         32,300           32,300       32,300
 Hearing Offices1
 Virtual Screening Unit                                        NA          14,500         14,100           13,100       11,200
 OQP Screening                                                 NA           3,000           3,000           3,000        3,000
                                             2
 Medical Expert Screening                                      NA             NA             NA               NA           NA
 Total                                                      36,366         49,800         49,400           48,400       46,500
Note 1: While some senior attorney adjudicators at hearing offices also dispose of hearings under VSU,
we separated them because their workload is controlled by separate entities. Most senior attorney
adjudicators are supervised by hearing office management, whereas senior attorney adjudicators
involved in the VSU are supervised by ODAR Headquarters.
Note 2: ODAR management informed us that the Medical Expert Screening initiative is under new
management and should be producing cases in the near future.

As shown in Table 5, the senior attorney adjudicators are expected to dispose of
approximately 194,000 hearing cases by the end of FY 2013. However, the Senior
Attorney Adjudicator initiative is set to expire in August 2011. Unless the Agency takes
action to extend this authority, the number of senior attorney dispositions will be
reduced by approximately 94,900 in FYs 2012 and 2013, thereby increasing the number
of pending hearings to about 499,000 cases at the end of FY 2013, and exceeding the
Agency’s target of 466,000 backlog cases (see Figure 6).

                               Figure 6: Projected Pending Hearings Backlog Based on
                                     Eliminating the Senior Attorney Adjudicator
                                                      (FYs 2009 through 2013)
                     800,000
 Pending Hearings




                     700,000   722,822
                                                 696,382

                                                                     635,662
                     600,000
                                                                                                    575,822


                                                                                         527,422
                     500,000                                                                                            499,482



                     400,000                                                                                             404,582
                        Actual 2009        Projected 2010         Projected 2011          Projected 2012        Projected 2013

                                                                End of Fiscal Year

                                         Hearings Pending              No Senior Attorney Decisions FY 2012/FY2013




ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                                    11
                                                                       Conclusions
SSA should be able to eliminate the pending hearings backlog if its projections
regarding hearings-level receipts, ALJ availability, ALJ productivity, and senior attorney
adjudicator productivity are met. However, there is little room for error. A small change
in any one of the underlying assumptions may cause SSA to miss its 2013 pending
hearings backlog goal. For this reason, continued assessment of these various factors,
as well as periodic adjustments by Agency managers, will be necessary to ensure SSA
remains on track to reduce the pending hearings backlog. Moreover, since not all these
factors are solely within SSA’s control, such as available sufficient funding and qualified
ALJ candidates, the Agency will need to maintain a good understanding of any potential
deficiencies to communicate its needs to other parties, including the Congress and
OPM.

In our discussions with SSA management, they informed us that the Agency continues
to make progress eliminating the pending hearings backlog. For example, Agency
managers stated that by the end of May 2010, SSA was approximately 12,000 pending
hearings below its FY 2010 goal of 706,700. 17 Additionally, average processing time
through May 2010 stood at 437 days, about 48 days better than the FY 2010 average
processing time goal of 485 days. Agency managers also stated senior attorney
adjudicators had produced 36,915 dispositions as of May 2010, which, when annualized
at the current rate, would put them on track to exceed the FY 2010 goal of
49,800 dispositions.




17
  At the same time the pending hearings backlog is being worked, new hearing requests continue to
come into the Agency.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                           12
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Initiatives Designed to Reduce and Eliminate the Hearings Backlog
APPENDIX D – Hearings-Level Receipts




ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)
                                                                     Appendix A

Acronyms

    ALJ               Administrative Law Judge

    DDS               Disability Determination Services

    FY                Fiscal Year

    ME                Medical Expert

    NHC               National Hearing Center

    OCALJ             Office of the Chief Administrative Law Judge

    ODAR              Office of Disability Adjudication and Review

    OIG               Office of the Inspector General

    OPM               Office of Personnel Management

    OQP               Office of Quality Performance

    SAR               Service Area Realignment

    SSA               Social Security Administration

    VSU               Virtual Screening Unit




ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed previous Office of the Inspector General reports on pending hearings
    backlog projections.

•   Consulted with Social Security Administration and Office of Disability Adjudication
    and Review managers to obtain updated information on the current status of the
    pending hearings backlog plan.

•   Reviewed the Agency’s backlog reduction initiatives to identify those related to the
    pending hearings backlog.

•   Analyzed the assumptions the Agency used to project the pending hearings backlog
    through 2013, particularly as it related to hearing receipts, administrative law judge
    (ALJ) availability, ALJ productivity, and workloads under the Senior Attorney
    Adjudicator initiative. In the case of FY 2009, we obtained the actual hearing
    receipts, ALJ availability, ALJ productivity, and workloads under the Senior Attorney
    Adjudicator initiative as reported by the Agency and used this information as part of
    our review of future expectations.

•   Examined scenarios in which the variables related to hearing receipts, ALJ
    availability, and both ALJ and senior attorney adjudicator productivity were reduced
    and/or increased incrementally each year to determine the effect on the pending
    hearings backlog by Fiscal Year 2013.

We found that Fiscal Year 2009 data were sufficiently reliable to meet our objective.
However, as noted in the report, future estimates are subject to change based on a
number of cited factors, as well as other potential factors not enumerated here. The
entity audited was the Office of the Deputy Commissioner for Disability Adjudication and
Review. We conducted this performance audit from January through March 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)
                                                                                 Appendix C

Initiatives Designed to Reduce and Eliminate
the Hearings Backlog
The Office of Disability Adjudication and Review (ODAR) has implemented a number of
initiatives related to increased staffing and improved processing of workloads, including
the (1) Administrative Law Judge (ALJ) Hiring initiative, (2) Informal Remand initiative,
(3) Senior Attorney Adjudicator initiative, and (4) Medical Expert Screening initiative.

ALJ HIRING INITIATIVE

The ALJ Hiring initiative is intended to promote the appointment of senior judges and
the hiring of new ALJs. In Fiscal Year (FY) 2009, 147 ALJs were hired. ODAR plans to
hire 226 ALJs in FY 2010 and is processing pending requests for reassignment and
finalizing the list of locations for new ALJs. 1 According to ODAR management, hiring in
FY 2010 is proceeding as planned.

INFORMAL REMAND INITIATIVE

The Informal Remand initiative was developed to increase ODAR’s adjudicatory
capacity and reduce the paper case backlog (predominantly aged cases) by having the
disability determination services (DDS) reopen certain cases based on specific profiles
established by the Agency’s Office of Quality Performance (OQP). DDSs review the
cases, and in each case where the DDS makes a fully favorable determination, the case
is allowed by the DDS while the hearing is dismissed by the hearing office. If the DDS
cannot make a favorable decision, the case is returned to the hearing office and
continues to go through the normal hearing process (with updated medical information).
Although the initiative was intended to reduce the backlog of paper cases, it was
extended to electronic cases in March 2008. As noted in this report, ODAR is not
processing many cases through this initiative at this time.

SENIOR ATTORNEY ADJUDICATOR INITIATIVE

The Senior Attorney Adjudicator initiative was reinstated in November 2007 and was
designed to improve the disability determination process and increase adjudication
capacity. This initiative allows non-ALJs to issue fully favorable on-the-record decisions
to expedite the decision and conserve valuable ALJ resources for the more complex
cases and cases that require a hearing. In FY 2010, the Agency expanded the Senior
Attorney Adjudicator initiative by implementing a Virtual Screening Unit (VSU).
Approximately 100 Senior Attorneys in hearing offices nationwide are detailed to the

1
  SSA Office of the Inspector General, Office of Disability Adjudication and Review Management
Information (A-07-09-29162), August 2009; and Hearing Office Performance and Staffing
(A-12-08-28088), February 2010.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                        C-1
VSU to screen cases under central directions from ODAR Headquarters in Falls
Church, Virginia. 2 Cases are selected using profiles developed by OQP that are
designed to identify cases with a high probability of a favorable decision. OQP staff is
also screening cases that meet these criteria and sharing these cases with ODAR so
that they can be handled by senior attorney adjudicators.

MEDICAL EXPERT SCREENING INITIATIVE

The Medical Expert Screening initiative is expected to identify cases that may meet or
equal one of the Listings of Impairments 3 as early in the hearing process as possible
through the use of pre-hearing interrogatories to Medical Experts (ME). Cases are
initially profiled by OQP staff before being sent to an ME for further review. If the case
can be allowed on the record, the case is routed to a senior attorney adjudicator for final
review and a decision. For cases that cannot be allowed, the ME’s response is included
in the record and the case routed to an ALJ for normal processing. ODAR management
noted that the initiative is under new leadership and expected to increase screening
efforts in the near future.




2
  We are completing a separate review of the Senior Attorney Adjudicator initiative that will be issued later
this year.
3
    The Listing of Impairments describes disabling impairments for each of the major body systems.


ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)                                                C-2
                                                                                                                                                           Appendix D

                      Hearings-Level Receipts
                      The Office of Disability Adjudication and Review monitors requests for hearings through
                      the Case Processing and Management System’s Caseload Analysis Report. The
                      number of new receipts being added is considered for determining whether the Social
                      Security Administration will meet its 2013 pending hearings backlog goal. Since Fiscal
                      Year (FY) 1997, hearings-level receipts have generally trended upward, attaining a
                      projected peak of nearly 750,000 in FY 2011. Figure D-1 illustrates the number of
                      hearing receipts from FYs1997 through 2009, and the estimated hearing receipts for
                      FYs 2010 through 2013.

                         Figure D-1: Hearing Receipts from FYs 1997 to 2009 and Projections to FY 2013




                                                                                                                                                                               749,900


                                                                                                                                                                                         729,800
                     860,000




                                                                                                                                                                                                   707,500
                                                                                                                                                                     708,600
                     760,000




                                                                                                                                                           622,851
Number of Receipts




                                                                                                                   592,343




                                                                                                                                                 589,449
                                                                                           587,240


                                                                                                        576,611




                                                                                                                                       579,127
                     660,000                                                                                                 557,970
                                                                                 525,383
                                                             491,404
                               489,548




                                                                       477,100
                                         457,720


                                                   455,192




                     560,000



                     460,000



                     360,000



                     260,000




                                                                                                     Fiscal Year




                      ODAR’s 2013 Pending Hearings Backlog Plan (A-12-10-20114)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
